s
0.

- *'

d
f

No,
Supreme Court, US,
FILED

JUN 2 1 2021
IN THE
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

YVONNE BOWERS SR._Petitioner

v.

LYNX ASSET SERVICES, LLC_ Respondent

ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPERIOR COURT OF NEW JERSEY
APPELLATE DIVISION

PETITION FOR A WRIT OF CERTIORARI

Yvonne Bowers Sr., Pro Se
83 Woodbine Avenue
Newark, New Jersey 07106
Phone: 862-237-6622

RECEIVED
JUL 1 5 2021
•FFICE OF THE CLERK
SUPREME COURT, U.S.

I

■i

V

1

QUESTION PRESENTED
1. Whether violations of due process and equal protection of law by state
actions present a constitutional challenge and violates Petitioner’s civil
rights pursuant 42 U.S.C. § 1983 (§ 1983)?
2. Whether the State Courts should discontinue shielding court officers
(attorneys) where they commit fraud on the court?

i

11

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.

RELATED CASES
1) Lynx Asset Servs., LLC v. Bowers, F-23081-09
Superior Court of New Jersey Chancery Division
Judgement entered November 23, 2010.
2) Lynx Asset Servs., LLC v. Bowers, F-23081-09
Superior Court of New Jersey Chancery Division
Judgment entered September 13, 2011
3) Lynx Asset Servs., LLC v. Bowers, F-23081-09
Superior Court of New Jersey Chancery Division
Judgment entered November 29, 2011
4) Lynx Asset Servs., LLC v. Bowers, F-23081-09
Superior Court of New Jersey Chancery Division
Judgment entered March 9, 2012

i

HI

5) Lynx Asset Serv., LLC v. Bowers, F-23081-09
Superior Court of New Jersey Chancery Division
Judgement entered May 14, 2012
6) Lynx Asset Serv., LLC v. Bowers, A-5101-11T2
Superior Court of New Jersey Appellate Division
Judgment entered September 9, 2013
7) Lynx Asset Servs., LLC v. Bowers, 073499
Supreme Court of New Jersey
Judgment entered February 14, 2014
8)

Lynx Asset Serv., LLC v. Bowers, 073499
Supreme Court of New Jersey
Judgment entered April 11,2014

9)

Lynx Asset Servs., LLC v. Bowers, 073499
Supreme Court of New Jersey
Judgment entered June 26, 2014

10) Lynx Asset Servs., LLC v. Bowers, ESX-C-191-17
Superior Court of New Jersey Chancery Division
Judgment entered October 27, 2017

i

IV

11. Lynx Asset Servs., LLC v. Bowers, ESX-C-191-17
Superior Court of New Jersey Chancery Division
Judgement entered January 5, 2018
12. Lynx Asset Servs., LLC v. Bowers, ESX-C-191-17
Superior Court of New Jersey Chancery Division
Judgment entered February 15, 2018
13. Lynx Asset Servs., LLC v. Bowers, ESX-C-191-17
Superior Court of New Jersey Chancery Division
Judgment entered April 13, 2018
14. Lynx Asset Servs., LLC v. Bowers, ESX-C-191-17
Superior Court of New Jersey Chancery Division
Judgment entered June 1, 2018
15. Lynx Asset Servs., LLC. v. Bowers, ESX-C-191-17
Superior Court of New Jersey Chancery Division
Judgment entered June 22, 2018
16. Lynx Asset Servs., LLC v. Bowers, A-004694-17T2
Superior Court of New Jersey Appellate Division
Judgment entered August 23, 2018
17. Lynx Asset Servs., LLC v. Bowers, A-004694-17T2
Superior Court of New Jersey Appellate Division
Judgement entered March 18, 2019

fe

i

V

18. Lynx Asset Servs., LLC v. Bowers, 082802
i

Supreme Court Of New Jersey
Judgment entered June 18, 2019
19. Lynx Asset Servs., LLC v. Bowers,082802
5

Supreme Court Of New Jersey

i
i

Judgment entered January 17, 2020

i
i
i

i
i

i

I
VI

TABLE OF CONTENTS
Page

QUESTIONS PRESENTED
LIST OF PARTIES/RELATED CASES
TABLE OF AUTHORITIES

n
vm

OPINIONS BELOW

xi

JURISDICTIONAL

1

CONSTITUTIONAL PROVISIONS INVOLVED

1

FEDERAL STATUTES INVOLVED

1

STATEMENT OF CASE

2

FACTS PERTAINENT TO CASE

3

REASONS FOR GRANTING CERTIORARI

6

1. PETITIONER’S DUE PROCESS OF LAW
AND EQUAL PROTECTION OF LAW
HAS BEEN VIOLATED ON MULTIPLE
i

OCCASIONS AND FRAUD ON THE COURT
IS APPARENT

6

i

vm
TABLE OF AUTHORITIES
Page
CASES
Adarand Contractors. Inc, v. Pena,
515 OS. 200 (1995)

15

Assoulin v. Sugarman.
388 A.2d 260 (App. Div. 1978)

i

13

County of Sacramento v. Lewis.
523 LLS. 833 (1998)

13

Dred Scott v. Sandford,
60 LLS. 393 (1857)

__9,13_

Heake v. Atlantic Casualty Ins. Co..
105 A. 2d 256 RJ, (1954)

8

Herring v. U.S.,
424 F. 3d 384 (3«* Cir. 2005)

18

Hyland v. Kirkman.
498 A. 2d 1278 (Ch. 1985)

3

Kingsdorfv. Kingsdorf
797 A. 2d 206 (App. Div.2002)

17

Lugar v. Edmondson Oil Co..
457 LLS. 922 (1982)

_1, 13_

New Brunswick Sav. v. Markouski
587 A.2d. 1265 (1991)

12

l

I

IX

TABLE OF AUTHORITIES

Page
CASES

Nolan v. Lee Ho
577 A. 2d 143 (1990)

17

Quinn v. Millsap.
491 U.S. 95 (1989)

6

Securities and Exchange Commission v. Wachovia
Bank, N.A. Civil Action No. 2:ll-cv07135 (3rd Cir. 2011) _7_
Wells Fargo Home Mortg. v. Stull.
876 A. 2d 298 (App. Div. 2005)

9

CONSTITUTION
14t.h Amendment
Due Process/ Equal Protection

_1,6,9,13,14,15,16_

FEDERAL STATUTES

42 U.S.C- § 1983

_1, 12_

28 U.S.C. § 1257

1

STATE STATUTES
N.J.S.A. 2A. 50-54 et seq

_10,12,15,16__

V

.

X

TABLE OF AUTHORITIES

Page
STATE STATUTES
i

N.J-S.A. 2A:64-3 (a)

12

N.J.S.A. 2A:64-3 (b)

12

RULES
R. 4:65-5

_4,14_

R.4:65-2

_12,13_

OTHER
Steven H. Gifis, Barron’s Law Dictionary
(6th ed. 2010)

2

WEBSITES

www.vitalgov.net

9

www.census.gov/auickfacts

10

www.nipublicnotices.com

12

I

XI

OPINIONS BELOW

The Opinions of the New Jersey Appellate Division have not been published.
They were decided on June 30, 2020, and appear at (Pet. App. la) and (Pet.
App.28a) which was decided September 9, 2013.
i

1

JURISDICTION
The date on which the highest state court decided Petitioner’s case was on January
19, 2021. A copy of that decision appears at Appendix A, 7a-8a. The jurisdiction of
this Court is invoked under 28 U.S.C. § 1257.

CONSTITUTIONAL PROVISIONS, in relevant part;
The Due Process Clause and Equal Protection Clause of the 14th
Amendment of The United States Constitution, which provides: “No state shall
...deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.” U.S.
Const. 14th Amend. § 1.

FEDERAL STATUTES
42 U. S.C. § 1983, “provides a remedy for deprivation of rights secured by the
Constitution and laws of the United States when the deprivation takes place ‘under
color of any statute, ordinance, regulation, custom, or usage of State or Territory...”
42 U.S.C. § 1983; Lugar v. Edmondson Oil Co.. 457 US. 922, 102 S. Ct. 2744,
73 L. Ed. 2d 482 (1982).

2

STATEMENT OF CASE
On March 6, 2018, in the trial court the federal question was raised in a Motion For
Fraud on The Court, Violation of Consumer Fraud Act, Denial of Due Process and
Equal Protection. The Appellate Division was very bias as demonstrated in the
subsequent unpublished opinion decided on June 30, 2020. Barron’s Law
Dictionary, defines bias as a “preconception; prejudice; taint; partiality. Since, most
person’s have various biases, the issue is whether the various biases is such that
impartiality cannot be achieved and a fair outcome cannot occur. Steven H. Gifis,
Barron’s Law Dictionary, Barron’s Educational Series, Inc., (6th ed. 2010). The bias
had become so blatant that Petitioner’s prayer is that this Court will grant petition
for a writ of certiorari, so Petitioner will be finally afforded an opportunity to be
seen and heard. The unpublished opinion begins with “the lack of merit in
defendant’s arguments is revealed by the procedural history.” (Pet. App. 2a). That
statement is false, because any part of the procedural history that depicts Petitioner
in a favorable light has been erased or deemphasized. For example, on March 9,
2012, Respondent was ordered to re-serve the Notice of Intention to Foreclose (NOI)
and Forbear for 35 days. That part of the procedural history has been virtually
erased. (Pet. App. 34a) (Pet. App. 64a). On March 15, 2012, Respondent reserved
the NOI, that too has been erased. (Pet. App. 65a) Alfieri re-served the NOI, but
had no intention of returning Petitioner to pre-foreclosure status. Respondent
continued to collect the rent. “Where the statutory process is used to strengthen
title fraudulently obtained and/or cover such fraud, the public sale is a sham”

3

Hvland v. Kirkman. 498 A.2d 1278, 204 N.J. Super. 345 (Ch. 1985). This whole case
was a sham based on untruths, deceit and deception.
FACTS PERTAINENT TO CASE
On March 6, 2009, Petitioner received original NOI, from HomEq Servicing Agent
(HomEq). (Pet. App. 41a). Petitioner was instructed by Wachovia Bank now known
as Wells Fargo Bank, to contact HomEq. On April 1, 2009, Petitioner contacted
HomEq as instructed and inquired about a loan modification. Petitioner was
instructed to make three payments, July 2009, November 2009, and December 2,
2009, was the last payment of $5,390. (Pet. App. 43a). That same day on December
2, 2009, Petitioner and HomEq executed a loan modification agreement. (Pet App.
44a-45a). Petitioner’s loan was now in performing status. On January 2, 2010, and
February 5, 2010, Petitioner paid $3,096.85. However, the last payment was the
February 5, 2012, payment, because HomEq vanished after that payment. (Pet.
App. 46a). Petitioner was bamboozled by Wachovia Bank. Petitioner consulted with
attorney Robert Pickett who faxed Wells Fargo a letter requesting that the loan
modification be restarted. (Pet. App.47a). But, Wells Fargo still refused to accept
Petitioner’s March 2010, mortgage payment. Petitioner retained attorney Barry
Miller. Miller, was ineffective and never even filed a motion in court. (Pet. App.
48a). Wells Fargo continued with the foreclosure proceedings and Petitioner fell
deeper and deeper into a forced default. November 23, 2010, final judgment was
rendered. (Pet. App. 38a). On December 21, 2010, after Wells Fargo was granted
final judgment, Attorney Miller then sent a fax for a loan modification. (Pet. App.

4

49a). On December 22, 2010, Wells Fargo assigned the mortgage to MCM CHAT.
(Pet. App. 50a). On June 14, 2011, MCM CHAT assigned the mortgage to
Respondent. (Pet. App. 51a). On September 13, 2011, Respondent substituted for
Wachovia. (Pet. App. 37a). Respondent had no plans on conducting any transactions
with Petitioner. They too refused to hear Petitioner’s plea, and on November 15,
2011, went on an adjournment. (Pet. App. 52a). Petitioner decided to do the same
and was granted November 29, 2011. Petitioner was called at work and informed
her Belleville Property was going to be sold that afternoon on November 29, 2011.
All Petitioner could think about was her mother. Petitioner filed an application for
an emergent stay, but the sheriff sale proceeded. Petitioner was denigrated and
subjugated to sitting in a hallway with a bailor watching her every move. Petitioner
was frightened, confused and dumbfounded. On December 6, 2011, Petitioner filed a
Motion to Vacate Sheriff Sale, Vacate Final Judgment and Dismiss The Complaint.
The return date was March 9, 2012. Sheriff Fontoura pursuant R.4:65-5, had a duty
to hold on to the deed until confirmation from the court. On March 9, 2012,
Petitioner thought she prevailed, but Respondent’s Attorney Alfieri insisted
Respondent prevailed and wrote the order and submitted the order to Hon. Judge
Klein to sign. The order was almost illegible, so Petitioner has submitted the one
page of the transcript that clearly states the sheriff sale was at least vacated for the
35 days during the forbearance period. (Pet. App. 34a-35a). (Pet. App. 64a). But,
Respondent avoided Petitioner after the ruling. Petitioner was worried, because
Petitioner could not take out a loan or refinance. Petitioner was constantly told

5

Petitioner was not the homeowner. So, Petitioner determined that Respondent must
not have standing. Petitioner found out later that standing is not important in a
foreclosure. “Standing is not a jurisdictional issue in our State court system and
therefore, a foreclosure judgment obtained by a party that lacks standing is not
void...” (Pet. App. 31a). Petitioner was perplexed, but Petitioner had no other
choice but to go back to court on May 11, 2012. Petitioner soon learned that in the
judicial system, being naive can be fatal. It can kill your dreams, your spirit and all
your aspirations. On May 14, 2012, Petitioner’s motion was denied. (Pet. App. 33a).
Petitioner appealed and the trial courts denial was affirmed on September 9, 2013,
by the Appellate Division. (Pet App. 28a-31a). Petitioner filed a petition for
certification reconsideration motion, which was denied on June 26, 2014. (Pet. App.
24a). Petitioner was never given the opportunity to be the homeowner of the
Belleville Property again, because Petitioner was dismissed as insignificant and
inconsequential. So, the Due Process Clause and Equal Protection Clause of the 14th
Amendment of the United States Constitution, served as no protection for
Petitioner. On September 7, 2017, the case was reopened and the disparate
treatment continued. Recently, Petitioner’s court documents were distorted by
hackers in an attempt to dissuade Petitioner from proceeding in this case. For
example, the Appellate Division’s unpublished opinion decided June 30, 2020, has
been altered. (Pet. App. 82a-87a). Petitioner has informed the State Courts that
Petitioner will not open attachments from Respondent’s attorneys. The last time
Petitioner opened an attachment from them, Petitioner’s computer crashed.

4

6

REASONS FOR GRANTING THE PETITION
“When a State Court denies the existence of a federal right and rest its decision on
that basis this Court unquestionably has jurisdiction to review the federal issue
decided by the State Court...” Quinn v. Millaap. 491 U.S. 95, 109 S. Ct. 2324, 105 L.
Ed. 2d 74 (1989). Also, a reason for granting petition for a writ of certiorari is to
prevent the erroneous deprivation of Petitioner’s due process of law and equal
protection of law guaranteed by the Fourteenth Amendment of the U.S.
Constitution.
I.

PETITIONER’S DUE PROCESS OF LAW AND EQUAL PROTECTION
OF LAW HAS BEEN VIOLATED ON MULTIPLE OCCASIONS AND
FRAUD ON THE COURT IS APPARENT.
A. BEFORE THE SHERIFF SALE, A CONSPIRACY WAS
PLANNED TO DEPRIVE PETITIONER OF HER
CONSTITUTIONAL PROTECTED PROPERTY INTEREST
RIGHTS IN VIOLATION OF THE DUE PROCESS CLAUSE.

On March 6, 2009, Petitioner was served a NOI that was deficient. It fisted the
name and address of HomEq Servicing Agent (HomEq), as the contact source. (Pet.
App. 41a). Petitioner contacted HomEq as instructed to inquire about a loan
modification. HomEq responded on June 16, 2009, and informed Petitioner that she
was eligible for a loan modification. (Pet. App. 42a). But, first Petitioner had to
make three payments of, 5,385 dollars, July 10, 2009, November 26, 2009, and
December 2, 2009, which was $5, 390, Petitioner paid all three installments. (Pet.

7

App. 42a-43a) (Pet. App. 73a). That same day on December 2, 2009, Petitioner and
HomEq executed a loan modification agreement. (Pet. App. 44a-45a). On January 2,
2010, and February 5, 2010, Petitioner paid $3,096.85 each month as stipulated in
the agreement. However, the February 5, 2010, payment was the last payment
HomEq received because the March 2010, payment was sent back to Petitioner
marked unable to deliver.
HomEq had vanished with over 20 thousand dollars of Petitioner’s hard earned
money. Coincidently, at the same time Petitioner was being cheated out of her
money by Wachovia Bank, the Securities and Exchange Commission (SEC) was also
taking complaints from at least 58 cities in over 25 states, because they too were
being cheated by Wachovia Bank. “Wachovia Bank, had to pay over $46 million
dollars just to SEC,” who turned the money back to the municipalities. Securities
and Exchange Commission v. Wachovia Bank. N.A., now known as Wells Fargo
Bank. N.A.. successor bv merger. Civil Action No. 2: 11-cv 07135-wjmrmf (D.N.J.
December 8, 2011). SEC also notes that in March 2010, Wachovia became known as
Wells Fargo. (Pet. App. 74a-75a) So, HomEq with the assistance of Wachovia then
Respondent with the assistance of Wells Fargo completed the circle of preying on
the vulnerable including Petitioner, and increasing the Black wealth gap while
steadily increasing their wealth without gaps. Petitioner called Wells Fargo on
March 1,2010, inquiring about where to send the March 2010, mortgage payment.
Petitioner was marginalized and pushed to the side as inconsequential. Wachovia
sent the NOTICE that “ HomEq Servicing Agent, as the authorized agent for

8

Wachovia Bank, NA Foreclosure Department will be collecting all mortgage
payments, likewise any concerns about foreclosure address to HomEq.” (Pet App.
76a-77a). When Petitioner called Wells Fargo, Petitioner was told “you have not
paid your mortgage since January 2009.” HomEq did not apply any of Petitioner’s
money to the mortgage. HomEq’s egregious misconduct and dereliction as the agent
was bad. But, Wells Fargo’s avoidance of their duty and responsibility, as the
principal by being Wachovia’s successor by merger was unconscionable. “Knowledge
of the agent is chargeable upon his principal, whenever the principal, if acting for
himself, who would have received notice of the matters known to the agent.” Heake
v. Atlantic Casualty Ins. Co.. 105 A. 2d 526, 151 N.J. 475 (1954); (quoting American
Surety Co. v. Conwav. 88 N. J. Eq.. 370, 375 (E&A.1917)). On March 4, 2010,
Attorney Pickett, faxed a letter on Petitioner’s behalf to Wells Fargo, to restart the
loan modification. (Pet. App. 47a). Nevertheless, Petitioner was doomed from the
very beginning. On April 15, 2010, attorney Barry Miller was given a retainer’s fee
of $3000 by Petitioner. (Pet. App.48a). The Appellate Division in both of their
unpublished opinions reported Petitioner, as doing nothing after receiving the
Complaint in April 2009 until the day of the sheriff sale. (Pet. App. la-6a) (Pet. App.
28a-31a)). The Appellate Division has never acknowledged, Petitioner had an
attorney nor the fact that on November 29, 2011, the day of the sheriff sale, was
also the first day Petitioner’s adjournment started. Petitioner was informed at work
that Petitioner’s Belleville Property was being sold that day. Petitioner immediately
went to the Sheriff Department. There was a mix up and only a judge could stop the

9

sheriff sale at that point. Petitioner filed the application for an emergent stay. The
Sheriff Department faxed over the sales listing details document with the scheduled
adjournments. (Pet. App. 52a). Hon. Judge Koprowski immediately sent a faxed
order ex parte, Stay of Sheriff Sale. (Pet App 53a). Petitioner was not aware of this
fax until September 7, 2017, after Respondent reopened the case and submitted the
fax with the exhibits. So, after some back door conversation Hon. Judge Koprowski,
Sheriff Fontoura and Respondent’s Attorney Alfieri decided Petitioner had no rights
that they were bound to respect. See Dred Scott v. Sandford. 60 U.S. 393, 15 L. Ed.
2d 691 (1857). Thereafter, the sheriff sale proceeded as planned and Petitioner was
denied due process and equal protection. At the sheriff sale Respondent bid $100 for
the Belleville Property, and was declared the highest bidder. The Belleville
Property was valued at $287,300 in March 2012, by the vital services group on
record at the Essex County Registrar and Deeds Office, www.vitalgfov.net. (Pet.
App. 78a)
In the Wells Fargo v, Stull case, the family appeared to have fallen behind in their
mortgage payments, but Wells Fargo wanted to work something out with the Stull
family, so they could remain in their home. Petitioner was not even behind in her
mortgage payments, but Wells Fargo was not compelled to work with Petitioner, so
that Petitioner’s mother and siblings could remain in their home. Wells Fargfo Home
Mortg. v. Stull. 876 A. 2d 298, 378 N.J. Super. 449 (App. Div. 2005). The Stull
family did not do anything to prevent final judgment, but they were good people
temporarily falling on hard times. The Stull family was treated with compassion

10

and humanity. Wells Fargo went to the sheriff twice to ask him to hold off on the
sheriff sale. The first time the sheriff was fine with that, but the second time the
sheriff said no. Id.; Wells Fargo went to court to have the sheriff sale adjourned.
The Judge was more than happy to grant the adjournment. As a matter of fact, the
adjournment was for six weeks instead of two. Id.; Wells Fargo wanted the sheriff
to know that the sheriff was there to assist them, but not to direct them. The trial
judge stated “it is public policy of this State that homeowners be given every
opportunity to pay their home mortgage and thus keep their home. N.J.S.A. 2A:5054; Id. at 300. The Stull family, the Courts and Wells Fargo all worked together.
Wells Fargo worked out a forbearance agreement with Stull, and the Stull family
remained in their home and lived happily ever after. The Stull family live in
Phillipsburg, New Jersey. It is a small community with approximately 15 thousand
residents, 77% White, 11% Black, the majority were middle class income level and
55% were homeowners who resided in the home, (www.census.gov/auickfacts).
Petitioner fives in Newark, the largest city in New Jersey, home to approx. 282
thousand residents, 50% Black and 26% White, the majority were lower class
income level and only 23 % were homeowners who resided in their home.
(www.census.gov/quickfacts)♦ Petitioner is an African American, middle age but
approaching elderhood status, female and permanently disabled but, far from broke.
President Biden and Vice President Harris are trying to address the racial
disparities in housing. Petitioner has been trying to expose the disparities in

11

housing and the judicial system, since the day Petitioners real property was taken
from her unlawfully on November 29, 2011, and then again on March 15, 2012.
Sadly, this public policy of the State providing the homeowner with every
opportunity to stay in their home and every opportunity to pay their residential
mortgage did not apply to Petitioner. Petitioner has been marginalized and
subjugated to a position of unimportance. When some court officers reviewed
Petitioner’s cover page, some court officers and state actors conjured up an
unfavorable image of Petitioner as evidenced by an unjust outcome. On the other
hand, when the cover page of the Stull family was reviewed, a much more favorable
picture was conjured up as evidenced by the much more favorable outcome. The
Stull family was similarly situated homeowners, purportedly under the same
circumstances as Petitioner, but Petitioner was denied the due process and equal
i

protection that was given to the Stull family.
Sheriff Fontoura and Respondent’s prior attorney Alfieri decided to continue where
Wachovia now known as Wells Fargo left off by defrauding the court and receiving a
favorable ruling. First of all, Sheriff Fontoura, never advertised or posted the sheriff
sale like he swore to in the deed. (Pet. App. 56a-63a). Sheriff Fontoura noted in the
deed that he advertised the Belleville Property in the Star Ledger and the Belleville
Times. (Pet. App. 60a). The Star Ledger and the Belleville Times had no record of
Sheriff Fontoura advertising the Belleville Property with the Sheriff File No.
11000612, for the month and year of November, 2011. This was Petitioner’s Sheriff
File No. 11000612. (Pet App.57a). Petitioner printed out the Belleville Times

i

12

Archives, for the month and year November, 2011. The only advertised sheriff sale
in the Belleville Times had a Sheriff No. 11009080. (Pet. App. 81a)
(www.njpublicnotices.com). Sheriff Fontoura neglected to post the sale of the
Belleville Property in the Sheriff Department or on the property in violation of
R.4:65-2. See, New Brunswick Sav. Bank v. Markouski, 587 A. 2d 1265, 123 N.J 402
(1991). Also, Petitioner has demonstrated that Sheriff Fontoura, did not advertise
at least once a week four for weeks in the two newspapers circulating in Essex
County, where the Belleville Property is located pursuant N.J.S.A. 2A:61-1; Id.
Secondly, the Writ of Execution was delivered to the Sheriff on November 23, 2010.
(Pet. App. 79a-80a). Pursuant N.J.S.A. 2A: 64-3(a), the sheriff sale must be
scheduled and conducted within 120 days. If it can not be done within the 120 days
the Respondent has the obligation to get an order for a Special Master to conduct
the sheriff sale within the 120 days pursuant N.J.S.A. 2A:64-3(b). It became invalid
after 120 days. But, Sheriff Fontoura and Respondent decided to again circumvent
the law and deny Petitioner, her Constitutional protected property interest right.
On November 29, 2011, the Writ of Execution was invalid, but it was used to
conduct the sheriff sale a year after it was delivered to Sheriff Fontoura.
Respondent has also violated Petitioner’s civil rights under § 1983. Sheriff Fontoura
acted under the color of law to unlawfully and arbitrarily deprive Petitioner of her
Constitutional protected property right of due process. If “a state officer acts with a
private party in securing property in dispute that is sufficient to create the requisite

13

state action and the private party may be subject to suit if seizure doesn’t comport
with due process.” Lugar v. Edmondson Oil Co.. 457 U.S. 991, 1004 (1982).
Respondent did not provide the at least ten-day notice before the sheriff sale under
R. 4:65-2. In all the court proceedings Respondent has never asserted sending the
ten-day notice. In the case Assoulin v. Sugarman, Plaintiff did not receive the tenday notice, so the court vacated the sheriff sale. Assoulin v. Sugarman. 388 A. 2d
260, 159 N.J. Super. 393 (App. Div. 1978).
Thirdly, Hon. Judge Koprowski, Sheriff Fontoura and Respondent were aware that
Petitioner was to start her second statutory adjournment on November 29, 2011.
This was an egregious deprivation of Petitioner’s substantive due process and it was
“arbitrary in the constitutional sense” which shocks the conscience. County of
Sacramento v. Lewis. 523 IIS. 833, 118 S. Ct 1708, 140 L. Ed. 2d 1043 (1998);
(citing Rochin v. California, 342 U.S. 165, 72 S. Ct. 205 96 L. Ed. 2d 183 (1952)). It
violates public policy of fairness and decency as well.
B. AFTER THE SHERIFF SALE THE CONSPIRACY CONTINUED
BETWEEN RESPONDENT’S ATTORNEY ALFIERI AND
SHERIFF FONTOURA.
Respondent and Sheriff Fontoura, have demonstrated repeatedly that Petitioner
had no rights that they were bound to respect. See Dred Scott v. Sandford. 60 U.S.
393, 15 L. Ed. 691 (1857). After the sheriff sale Petitioner had a ten-day redemption
period to challenge the sheriff sale. Petitioner filed a Motion to Vacate Sheriff Sale,

\

14

Vacate Final Judgment and Dismiss Complaint on December 6, 2011, and the
return court date was scheduled for March 9, 2012. Pursuant to R. 4:65-5, the
Sheriff had a duty to hold on to the deed until confirmation from the court, when a
sheriff sale is challenged. Respondent and Sheriff Fontoura decided to circumvent
the law again. Unbeknownst to Petitioner, on January 3, 2012, Sheriff Fontoura
delivered the deed to Respondent. This was an act of betrayal of the public’s trust,
an act which extinguished all of Petitioner’s, Belleville Property interest rights
before due process. (Pet. App. 56a). Respondent recorded the deed on February 6,
2012, one month before trial. (Pet. App. 56a).
On March 9, 2012, Respondent was ordered to re-serve the NOI and forbear for 35
days. (Pet. App. 34a) (Pet. App.64a). On March 15, 2012, Respondent served the
NOI, this was where fraud on the court occurred. The re-serving of the NOI,
supports a prima facie case that Respondent acknowledged that Petitioner
prevailed and that Petitioner was to be returned to pre-foreclosure status. (Pet.
App. 65a). However, the courts and Respondent did not agree with Petitioner and
ruled the motion was denied on March 9, 2012. The re-serving of the NOI was just a
ruse. (Pet. App. 65a). Respondent’s attorney Alfieri intentionally defrauded and
misled the court into believing Respondent was being compliant. (Pet. App. 28a).
Respondent’s attorney Alfieri, did not have any plans of returning Petitioner to pre­
foreclosure status, but chose indirectly to force Petitioner into default. Respondent’s
attorney Alfieri did not disclose to the courts or Petitioner that the deed needed to
be corrected, because it was presently in Respondent’s name. The courts believed

i

T4

I

r1

i

16

scrutiny was used by this Court to review if the federal government used racial

i

classifications narrowly tailored to further a compelling government interest).
Petitioner is African American and the N.J.S.A. 2A:50-56 is clear and unambiguous,
but the interpretation has been tainted and for no compelling government interest.
The only compelling interest was Respondent’s compelling interest to do whatever
was necessary to gain possession of Petitioner’s Belleville Property. In the Appellate
Division’s unpublished opinion decided on June 30, 2020, appearing at (Pet. App.
2a), the dates March 9, 2012, and March 15, 2012 have been deliberately and
purposefully erased. When the unpublished opinion reported that “A week later,
defendant moved to vacate the default judgment and sheriffs sale. The motion was
denied.” (Pet. App. 2a). Petitioner was left to guess that the unpublished opinion
was referring to the March 9, 2012 trial. The re-serving of the NOI has been
completely erased from the procedural history and there was no mention of that
material date anywhere. Respondent’s attorney Alfieri committed fraud on the court
on March 15, 2012, where Alfieri re-served the NOI knowing that Petitioner’s
Constitutional protected Belleville Property rights were extinguished on January 3,
2012. (Pet. App. 56a). Respondent’s attorney recorded the deed on February 6, 2012,
j

!

unbeknownst to Petitioner. Thus, Petitioner no longer had any ties to the Belleville
i
5

Property and there was no mortgage loan default to cure at the time of trial.

I
I

)
;

Petitioner was denied due process which by now has become a pattern. The NOI
did not have any significance and served only to intentionally deceive the court in to

i

!

granting a favorable judgment. The New Jersey State Courts are shielding the
I

I

I

I
I

!

.

18

referred to the Disciplinary Ethic Committee by the Courts, for violating Rules of
Professional Conduct (RPC), which is not actionable. The complaints against the
attorneys were dismissed in both cases. In contrast, the Federal Courts focus their
attention on the attorney’s egregious misconduct not the plaintiffs. “A prima facie
case of fraud on the court has these elements: (1) an intentional fraud; (2) by an
officer of the court; (3) which is directed at the court itself; and (4) in fact deceives
the court.” Also it must be an egregious misconduct. Herring v. U.S., 424 F. 3d 384
(3rd Cir. 2005). In this case the re-serving of the NOI was a sham and an intentional
fraud, by Respondent’s attorney Alfieri, to deceive the court and it worked.
CONCLUSION
The petition for a writ of certiorari should be granted. Stay of Sanctions is
warranted pending review.
Respectfully submitted,

7&Urtt/iasjh..
Yvonne Bowers Sr., Pro Se
Date: July 2, 2021
CERTIFICATION
I declare under penalty of perjury that the foregoing statements are true and
correct. Executed on July 2, 2021
Yvonne Bowers Sr., Pro Se

20

3) Appellate Division Clerks Office, R. J. Hughes Justice Complex
P.O. Box 006, Trenton, N.J. 08625
4) Joshua G. Curtis Esq.
21 Main Street, Suite 210, Hackensack, New Jersey 07601

I declare under penalty of perjury that the foregoing statements are true and
correct.
Executed on July 2, 2021.

7
9
Yvonne Bowers Sr., Pro Se

CERTIFICATION OF COMPLIANCY
I declare under penalty of perjury that 4911 word count statement is true and
correct as reported on the computer.
Executed on July 2, 2021

%

vonne Bowers Sr., Pro Se

9

